                                  INDEPENDENT ACCOUNTANTS’

                         REPORT ON THE PERFORMANCE AUDIT OF

                                      CNA SURETY COMPANIES




Performed by:

Cotton & Company LLP
Certified Public Accountants
333 North Fairfax Street, Suite 401
Alexandria, Virginia 22314
                       U.S. SMALL BUSINESS ADMINISTRATION
                           OFFICE OF INSPECTOR GENERAL
                               WASHINGTON, D.C. 20416


                                                                AUDIT REPORT
                                                         Issue Date: February 28, 2002
                                                         Number: 2-06



To:           Robert J. Moffitt
              Associate Administrator, Office of Surety Guarantees


From:         Robert G. Seabrooks
              Assistant Inspector General for Auditing

Subject:      Audit of CNA Surety Companies

       Attached is the audit report on CNA Surety Companies issued by Cotton & Company
LLP. The report discusses the following issues: (1) status reports were not maintained for one
bond, and (2) a duplicate claim payment was made on one bond that was reimbursed by SBA.
       You may release this report to the duly authorized representative of CNA Surety
Companies. The findings included in this report are based on the auditors’ conclusions. The
findings and recommendations are subject to review, management decision, and corrective action
by your office in accordance with existing Agency procedures for audit follow-up and resolution.
Please provide us your proposed management decision for each recommendation on the attached
forms 1824, Recommended Action Sheet, within 80 days.
       This report may contain proprietary information subject to the provisions of
18 USC 1905. Therefore, you should not release this report to the public or another agency
without permission of the Office of Inspector General. Should you or your staff have any
questions, please contact Robert Hultberg, Business Development Programs Group at
(202) 205-7577.


Attachments
                                         November 20, 2001


U.S. Small Business Administration
Office of Inspector General


BACKGROUND

        The Small Business Investment Act of 1958, as amended, authorized the U.S. Small Business
Administration’s (SBA) Surety Bond Guarantee Program (SBG) to assist small, emerging, and minority
construction contractors. SBA indemnifies surety companies from potential losses by providing a
Government guarantee on bonds issued to such contractors. SBA guarantees up to 90 percent for
contracts not exceeding $1.25 million ($2 million effective January 25, 2001). SBA’s Office of Surety
Guarantees (OSG) administers the SBG program.

OBJECTIVE, SCOPE AND METHODOLOGY

       SBA’s Office of Inspector General (OIG) requested Cotton & Company to conduct a
performance audit of CNA Surety Companies (CNA). CNA Financial Corporation operates two surety
companies that participate in SBA’s Preferred Surety Program, Continental Casualty Company and
American Casualty Company. The primary objectives were to determine if:

1.     CNA complied with policies and procedures, including SBA’s policies and standards generally
       accepted by the surety industry, in issuing SBA-guaranteed bonds.

2.     CNA submitted claims and expenses to SBA that were allowable, allocable, and reasonable.

3.     CNA accurately calculated fees due to SBA and remitted them in a timely manner.

        We obtained the universe of bonds identified by SBA as having claims activity from October 1,
1999, through September 30, 2001. This universe contained six bonds, and we selected three as sample
bonds for review. We also randomly selected two additional bonds originally approved in Fiscal Years
(FYs) 2000 and 2001 for underwriting review only. Thus, our total sample size was five bonds with
claims (net of recoveries) totaling $681,582.01. [FOIA Ex. 4]

        We tested sample bonds for compliance with SBA regulations for underwriting and fees by
reviewing underwriting files and CNA’s accounting records. We tested claims incurred under sample
bonds by reviewing CNA’s supporting documentation in claim files and accounting records. We
obtained a list of all SBA-guaranteed final bonds from October 1, 1999, through September 30, 2001, and
identified contractors with total bonds exceeding $1.25 million ($2 million for bonds issued after January
25, 2001) for contracts with the same obligee and bond issue dates within several months. We then
reviewed project descriptions to determine if the bonds were for a single project divided into more than
one contract.

       We conducted fieldwork in November 2001 at CNA’s offices in Chicago, Illinois. The audit was
conducted in accordance with Government Auditing Standards, 1994 Revision.

AUDIT RESULTS AND RECOMMENDATIONS

        CNA correctly calculated and remitted all sample bond fees to SBA in a timely manner. CNA
did not always comply with SBA regulations for underwriting and servicing bonds and processing
claims. Specifically, we found no documented evidence that a status request was obtained from the
obligee for one bond guarantee tested for underwriting standards. In addition, the claim files reviewed
for one bond indicate that a duplicate payment was made to a claimant in the amount of $4,052.87. SBA
reimbursed the duplicate payment to CNA in the amount of the 70-percent guarantee rate, or $2,837.01.
As a result, we questioned $2,837.01.

        We concluded that management and financial controls were adequate to protect assets and
prevent errors and fraud, except as noted below. We concluded that CNA did not comply in all material
aspects with SBA regulations for obtaining and maintaining documents to support proper underwriting of
SBA bond guarantees. We also concluded that CNA did not have procedures in place to ensure that it
did not make duplicate claim payments.

       We conducted an exit conference with CNA personnel on November 20, 2001. They generally
agreed with factual aspects of the findings.

        Our findings and recommendations are discussed in detail below.

Progress Status Reports

         CNA did not request and maintain required obligee status reports for one of the five bonds tested
in our sample. We found no evidence that CNA obtained status reports for a bond made to [FOIA Ex. 4].

         Title 13, CFR 115.65, General PSB procedures, (b) states that the Surety must request job status
reports from Obligees in accordance with its own procedures. CNA’s policy is to request status reports
from obligees for all bonds greater than $500,000.

         Recommendation: We recommend that the OSG Associate Administrator advise CNA to adhere
to its own policy for maintaining job status reports.

Duplicate Payment

        CNA made a duplicate payment for one bond in our sample, [FOIA Ex. 4]. CNA learned of the
duplicate payment as a result of the audit and verified that the [FOIA Ex. 4] payment was a duplicate.
CNA had previously requested reimbursement from SBA for both payments at the 70-percent guaranteed
rate and was reimbursed $2,837.01 for the duplicate payment.

        Title 13 CFR 115.16, Determination of Surety’s Loss, defines losses as:


                                                    2
                Amounts actually paid by the Surety which are specifically allocable to the
                investigation, adjustment, negotiation, compromise, settlement of, resistance to a
                claim for Loss resulting from the breach of the terms of the bonded contract.

        Recommendation: We recommend that the OSG Associate Administrator:

1.      Take appropriate actions to recover $2,837.01 for the amount of the duplicate claim payment.

2.      Advise CNA to review and revise its policies and procedures to ensure that all further claims for
        reimbursement are allocable and allowable.

         CNA’s Response: CNA stated that they agree with the findings and recommendations outlined
in the draft audit report and will be returning to the SBA Office of Surety Guarantees the $2,837.01
relating to the duplicate payment made to American Construction Services (see appendix).

SBA MANAGEMENT’S RESPONSE

        The Associate Administrator, Office of Surety Guarantees, agreed with the recommendations in
our draft audit report. He stated that his office will implement the recommendations upon completion of
the audit, as appropriate.




                                                    3
                                                                              Attachment


                                          SAMPLE BONDS


                                                                           Bond       Bond
Sample      Surety Bond            CNA                                    Approval   Default
  No.      Guarantee No.         Bond No.               Contractor Name     Date      Date
  1      [FOIA Ex.4 and 6]
  2
  3
  4
  5


         N/A = Sample bond selected for underwriting review only.
         APPENDIX

    CNA SURETY COMPANIES
RESPONSE TO THE DRAFT REPORT
                                                 REPORT DISTRIBUTION

Recipient                                                                                                   No. of Copies

Associate Deputy Administrator for Capital Access .................................................1

General Counsel.........................................................................................................2

Office of the Chief Financial Officer
Attention: [FOIA Ex. 6]............................................................................................1




                                                                     3
